               U.S. DEPARTMENT OF THE INTERIOR
                   OFFICE OF INSPECTOR GENERAL




      BUREAU OF INDIAN AFFAIRS
OFFICE OF INDIAN EDUCATION PROGRAMS
   CENTRAL OFFICE MANAGEMENT OF
        ADMINISTRATIVE FUNDS




REPORT NO. C-IN-BIA-0007-2003        MARCH 2004
This Page Intentionally Left Blank
EXECUTIVE SUMMARY
              We audited the Bureau of Indian Affairs’ (BIA) Office of
              Indian Education Programs’ (OIEP) Central Office’s
              management of its administrative funds. Administrative
              funds are used by the OIEP Central Office to provide
              support and services to field offices and schools.
              Administrative funds also include the Indian School
              Equalization Program’s (ISEP) Director’s contingency
              fund (contingency fund) for emergency situations. This
              fund is established through a holdback of a portion of
              funds otherwise distributed to Indian schools.

              We concluded that administrative funds were not
              adequately managed by the Central Office of the OIEP.
              Specifically, we found that the Central Office:

                 ¾ Used contingency fund monies for non-
                   emergencies, such as purchasing recreational
                   furniture, and incorrectly calculated the amount
                   needed for the contingency fund.

                 ¾ Did not adequately plan for expenditures or
                   record obligations.

                 ¾ Acquired goods and services of $3.6 million
                   without the use of competition.

              As a result of these deficiencies, the OIEP Central Office
              risks not having contingency fund monies available for
              actual emergencies. Further, by not actively managing
              its funds, the OIEP Central Office is unable to maximize
              monies available for distribution to Indian schools.

              Based on our audit, BIA established a separate
BIA ACTIONS   accounting code structure in the financial accounting
              system for contingency funds. In its response to our
              draft report, BIA stated it would take further actions to
              improve OIEP Central Office financial management by:

                 ¾ Submitting information about contingency funds
                   used in its future budget justifications to the
                   Congress.


                           i
¾ Developing internal guidance to implement
  regulations related to contingency fund
  operations.

¾ Holding program managers accountable for
  proper administration of program funds.

¾ Implementing policy memorandums establishing
  a process for review and approval of sole-source
  justifications and clarifying lead time
  requirements for procurement actions.

¾ Submitting contract requisitions in accordance
  with BIA procurement guidance and promptly
  addressing issues of noncompliance.




        ii
CONTENTS
                                                                                                                           Page

INTRODUCTION ........................................................................................... 1
         BACKGROUND ....................................................................................................    1
         OBJECTIVE AND SCOPE ......................................................................................         2


RESULTS OF AUDIT ..................................................................................... 3
         CONTROLS OVER THE USE AND MANAGEMENT OF CONTINGENCY
            FUND DEFICIENT .......................................................................................... 3
         REQUIREMENTS FOR OBLIGATING FUNDS NOT FOLLOWED ............................... 6
         ACQUISITION REGULATIONS NOT FOLLOWED ................................................... 8
         BIA ACTIONS..................................................................................................... 9
         RECOMMENDATIONS .......................................................................................... 10
         BIA RESPONSE .................................................................................................. 12


APPENDICES
         1    BUREAU OF INDIAN AFFAIRS ORGANIZATION,
               RESPONSIBILITIES, AND RESOURCES ........................................................                    13
         2    SCOPE AND METHODOLOGY ........................................................................               15
         3    BIA RESPONSE TO DRAFT REPORT ..............................................................                  17
         4    STATUS OF AUDIT RECOMMENDATIONS ......................................................                       21




                                                             iii
This Page Intentionally Left Blank




                iv
INTRODUCTION
                                The Bureau of Indian Affairs’ (BIA) Office of Indian
BACKGROUND                      Education Programs (OIEP) is responsible for administering
                                the only national education system for American Indian
                                children and adults. OIEP currently administers BIA
                                programs that provide for the education of about 48,000
                                Indian students attending federally funded elementary and
                                secondary schools. OIEP operates two colleges and funds an
                                additional 25 colleges that are operated by tribes and tribal
                                organizations. OIEP fulfills its mission “to provide quality
                                education for lifelong learning” through its Central Office and
                                24 field offices. OIEP’s Central Office operates out of
                                Washington, D.C., and Albuquerque, NM, and its field offices
                                are located throughout the United States. A detailed
                                discussion of OIEP’s responsibilities, organization, and
                                resources is in Appendix 1.

                                The majority of funding for OIEP is provided through the
                                Department of the Interior’s annual appropriation. OIEP
                                receives additional funding from the U.S. Department of
                                Education and other sources. OIEP distributes the majority of
                                appropriated funds to schools under the Indian School
                                Equalization Program (ISEP) which provides direct funding
                                for the instruction and residential care of Indian children. A
                                portion of the ISEP funding is reserved for the Director’s
                                contingency fund (contingency fund). According to Public
                                Law 100-427, Amendments to Section 1128(d) of the
                                Education Amendments of 1978; Public Law 103-382,
                                “Improving America’s Schools Act of 1994”; and Public Law
                                107-110, “No Child Left Behind Act,” this contingency fund
                                is to be used for emergencies and other contingencies
                                affecting programs funded by ISEP. For budget fiscal year1
                                2001/2002, OIEP spent approximately $728 million in
                                funding received from all sources. Of the $728 million, $667
                                million was used by schools and education field offices, and
                                about $61 million was used by the OIEP Central Office as
                                follows:




1
 As defined by the Federal Financial System’s User Guide, a budget fiscal year “Represents the fiscal
year(s) in which money is available for a given appropriation.” For Indian education funds, the budget
fiscal year represents the 15 month-period starting July 1 and ending September 30.


                                                    1
                            Funds Used by the OIEP Central Office
                                Budget Fiscal Year 2001-2002




                                                                                                Contracted Services
                                                                                                   $11.4 Million
                Grants                                                                                 19%
              (Primarily to
            Tribal Colleges)
             $38.2 Million
                  63%




                                                                                          Payroll and Benefits
                                                                                              $6.2 Million
                                                                                                  10%
                                                                             Purchases from the
                                                                Other  1        Government
                                                              $2.6 Million       $2.7 Million
                                                                 4%                 4%

      1
       "Other" consists of: Travel, $1,043,000; Rents, Communications and Utilities, $473,000; Supplies and Materials,
      $428,000; Equipment, $362,000; Transportation, $184,000; Printing and Reproduction, $58,000; Insurance Claims,
      $15,000; Operation and Maintenance of Equipment, $15,000; and Refunds, ($4,000).




                               The objective of our audit was to determine whether the OIEP
OBJECTIVE AND                  Central Office is appropriately managing its program
SCOPE                          administration funding. The scope of our audit was generally
                               limited to the receipt, distribution, and use of funds by the
                               OIEP Central Office for fiscal year 2000 through April 2003.
                               We generally excluded grants disbursed to tribal colleges
                               from our scope except when evaluating procurement
                               procedures. Detail about the scope and methodology of our
                               audit, including offices visited, is in Appendix 2.




                                                        2
RESULTS OF AUDIT
                      Administrative funds were not adequately managed by the
                      Central Office of the OIEP. Specifically, OIEP:

                         ¾ Used contingency funds for non-emergency
                           purposes, and incorrectly calculated the amount
                           needed for the contingency fund.

                         ¾ Did not adequately plan for expenditures or record
                           obligations—especially when purchasing
                           information technology systems from the General
                           Services Administration’s (GSA) Federal Systems
                           Integration and Management Center (FEDSIM).

                         ¾ Acquired goods and services of $3.6 million without
                           the use of competition.

                      OIEP does not have formal written procedures and/or
CONTROLS OVER         policies governing the contingency fund. Without written
THE USE AND           guidance, OIEP officials appear to be using the fund as a
MANAGEMENT OF         discretionary fund for the Director of OIEP rather than as
CONTINGENCY           monies set aside for emergencies or other unforeseen
FUND DEFICIENT        events. In addition, OIEP is unable to effectively track,
                      monitor, and report the use of the contingency fund because
                      the fund is not segregated in the financial accounting
                      system. Further, OIEP allowed unused contingency funds
                      to lapse instead of distributing the funds to schools because
                      it did not properly account for the funds. Finally, OIEP did
                      not submit required reports on fund use to the Congress.

Funds used for non-   During budget fiscal years 1999/2000 through 2001/2002,
emergencies.          the OIEP Central Office used at least $5 million in
                      contingency fund monies for non-emergency purposes.
                      Examples follow:

                          ¾ Supplementing OIEP programs and initiatives that
                            are not financed under ISEP formula funding such
                            as:

                                 •   Computer networking projects. Funds of
                                     $3.3 million were used for initiatives such as
                                     upgrading and modernizing the computer
                                     infrastructure and data communications


                                      3
          connectivity of BIA schools and providing
          commercial-off-the-shelf administrative
          applications software to BIA schools,
          district-level education line offices, and the
          national central office.

      •   Student Statistical Initiative. Funds of
          $800,000 were used to implement a school
          statistics collection effort at all BIA-funded
          schools that will be used to process school-
          related data at all levels within BIA.

      •   Family and Child Education (FACE)
          Program. The FACE Program is intended to
          provide early childhood education, parenting
          skills, parent and child interaction time, and
          adult education and training. Funds of
          $210,000 were spent for the FACE Program
          for items such as televisions, bean bag
          chairs, puppets, shirts for staff and families,
          mobile radios, and playground equipment.

¾ Purchasing goods and services associated with
  normal educational operations such as:

      •   Annual audit services. Funds of $50,000
          were used for audit services at two schools.
          Dilcon School received $35,000 for annual
          audits for school years 1999/2000 and
          2000/2001. We noted that this school
          receives a grant that also includes monies to
          cover administrative activities such as
          audits. The Turtle Mountain Agency School
          received $15,000 for an audit of non-federal
          funds.

      •   Staff development activities. Funds of
          $30,000 financed a conference to improve
          administrative processes, and $89,500 was
          used for a summer reading retreat.

      •   Recreational and lobby furniture. Theodore
          Roosevelt School received $17,121 for items
          such as a big screen television, stove, sofa,
          chair, end tables, and lamps.




          4
                         Although these goods and services ultimately supported
                         Indian education programs, the need for these goods and
                         services did not arise from unforeseen or emergency
                         circumstances, and the contingency fund should not have
                         been used for these purposes.

Funds not available to   By using the contingency fund on a discretionary basis and
address emergencies.     not tracking expenditures, OIEP risks not having
                         contingency fund monies for actual emergencies, as
                         occurred in budget fiscal year 2000/2001. In this instance,
                         a school needed $395,000 in emergency funds to complete
                         the school year. There were insufficient funds in the
                         contingency fund, so OIEP used ISEP funds of $138,861
                         which had been scheduled to be distributed to schools.
                         Furthermore, an additional amount of ISEP funds of
                         $41,239 had to be retained for the contingency fund for
                         other potential unrecorded obligations or other emergency
                         situations.

                         This situation also caused OIEP to expend contingency
                         fund monies in excess of the one percent allowed. For
                         budget fiscal year 2000/2001 OIEP received $316.5 million
                         for ISEP funding. Thus using the one percent limitation,
                         OIEP had about $3.2 million available for the
                         contingencies. However, OIEP expended more than $3.3
                         million for the contingency fund.

                         Because the OIEP Central Office tracks disbursements
                         from the contingency fund by a manual log rather than
                         setting aside the fund with a separate and identifiable
                         accounting code in the financial accounting system, we
                         could not validate the disbursement data for accuracy or
                         completeness.

Opportunity to           By allowing contingency fund monies to keep their fiscal
provide Indian schools   year identity, OIEP has limited the useful life of these
additional funds was     monies. Stated differently, had OIEP established the
lost.                    contingency fund as a no-year fund and used the balance
                         remaining in the fund from the prior year in calculating the
                         amount needed for the current year, it could have
                         distributed the residual amount to Indian schools. Because
                         the funds are not maintained as a no-year contingency fund,
                         they retain their fiscal year identity and will lapse to the
                         U.S. Treasury if not expended. For example, about
                         $200,000 of budget fiscal year 1996/1997 contingency fund
                         monies has expired and are no longer available for use. In



                                        5
                        addition, OIEP will likely lose the use of contingency funds
                        totaling $1.3 million retained from budget fiscal years
                        1997/1998 through 2001/2002 if these monies are not used
                        for unrecorded and/or unknown prior year obligations.

Reports to Congress     OIEP has not reported its use of the contingency fund in the
not submitted.          annual budget submissions for budget fiscal years
                        1996/1997 through 2001/2002 to Congress. Public Law
                        100-427 requires the use of contingency funds to be
                        reported to Congress in the annual budget submission. As
                        a result, Congress has not had complete budgetary
                        information for these programs.

                        OIEP does not follow sound business practices or federal
REQUIREMENTS FOR accounting standards for planning, accounting for, and
OBLIGATING FUNDS monitoring its use of administrative funds. Specifically, our
NOT FOLLOWED     audit showed that:

Spending plans not      OIEP does not require all organizational elements to
prepared.               prepare or adhere to a spending plan. Spending plans are a
                        key element in establishing and maintaining accountability.
                        They provide management and program officials with
                        feedback to measure, evaluate, and improve performance.
                        Without spending plans, OIEP cannot hold managers
                        financially accountable or ensure the availability of funds
                        for program needs. Also, without spending plans the
                        managers of the organizational elements do not have the
                        tools they need to make good management decisions. For
                        example, we found OIEP did not adequately plan for
                        activities related to the FACE Program. As a result, OIEP
                        redistributed funding of $275,480 for other Indian
                        education programs to supplement FACE program
                        activities.

Obligations not         OIEP did not always record obligations in its financial
properly recorded.      accounting system when it should have done so. For
                        example, OIEP entered into an agreement with GSA’s
                        FEDSIM for the design, procurement, management, and
                        operation of Indian education information systems and
                        information technology. However, most obligations for the
                        estimated needs for information technology were not
                        recorded. Instead, OIEP would generally place orders with
                        GSA and wait until GSA submitted a bill and then record
                        both the obligation and payment at the same time. From
                        1995 through the time of our review, OIEP placed orders
                        totaling $12.9 million without obligating the amounts until



                                        6
                   it actually disbursed the funds. OIEP has accounted for its
                   $123,000 agreement with the Department of Health and
                   Human Services’ Federal Occupational Health for the
                   operation of OIEP’s employee assistance program in a
                   similar manner. Also, OIEP did not track its expenditures
                   on the FEDSIM agreement. OIEP could not provide us
                   with basic information, such as the total amount expended
                   to date, planned expenditures, or a full listing of items and
                   services purchased.

                   Accrual accounting is the prescribed basis of accounting for
                   federal agencies under 31 USC § 3512(e). Under accrual
                   accounting, an obligation should be recorded in the
                   financial system when the commitment to buy/pay is
                   established. Accrual accounting is critical to fund control
                   because it helps ensure that funds are available to pay
                   obligations once they become due.

Funds may not be   The practices of not planning for or monitoring the use of
available to pay   its financial resources and not recording all valid
obligations.       obligations in its financial accounting system places OIEP
                   in a potentially precarious financial situation, since there is
                   no assurance that funds will be available to pay obligations
                   once they become due. Also, OIEP cannot determine the
                   precise status of appropriations as a result of not recording
                   valid obligations. We believe that OIEP breached its
                   fiscal responsibility by over-expending at different budget
                   levels for which an established amount of money is made
                   available for use, specifically, the allocation and allotment
                   levels. Our review disclosed that OIEP Central Office
                   programs had negative fund balances totaling $694,000, in
                   the financial system as of January 2003, for three program
                   allocations: Department of Education Title Fund, BIA
                   Education Program Management, and BIA Education
                   Personnel Services. The negative balances of the last two
                   program allocations contributed to a negative balance of
                   $329,310 at the allotment level for the Central Office
                   Operations Fund for budget fiscal year 2002/2003. As a
                   result, OIEP was unable to timely charge the $62,896 cost
                   of two obligations relating to relocation expenses and
                   employee assistance program services to the appropriate
                   code.




                                   7
                  OIEP Central Office management officials circumvented
ACQUISITION       the Federal Acquisition Regulation (FAR) by procuring
REGULATIONS NOT   services without the benefit of competition, and by
FOLLOWED          approving interagency agreements without considering
                  other vendors. Specifically, our audit disclosed that
                  management officials:

                     ¾ Negotiated directly with vendors for training
                       services in three procurement actions. These actions
                       were not reviewed by a contracting officer and/or
                       did not meet the requirements for open competition.
                       For example, OIEP provided training to school
                       principals using an existing grant agreement with a
                       tribal college rather than entering into a contract
                       with the organizers of the training. By funding the
                       training in this manner, OIEP paid an unnecessary
                       administrative fee of $26,700 to the tribal college.
                       OIEP officials said they used this method to
                       expedite the funding process.

                     ¾ Submitted sole-source justifications that did not
                       substantiate a need (for example, the unique or
                       urgent nature of the acquisition) for non-competitive
                       acquisition for 9 of 11 sole-source contracts we
                       reviewed totaling $2.6 million. For example, OIEP
                       awarded a sole-source contract to a company for
                       $4,050 to plan and facilitate the “Directors 100
                       meeting” which was a meeting to discuss OIEP’s
                       mission and goals. The Director of OIEP invited
                       100 individuals to attend. The stated justification
                       for the sole-source award was the company’s
                       “knowledge and past performance” and “due to
                       urgency.” In our opinion, this urgency arose due to
                       poor planning because the contracting officer was
                       given only three days to approve the contract. Even
                       more questionable was a modification for $44,080
                       (1,088 percent increase) less than one month later.
                       The modification was made to “implement the
                       event” planned under the original contract. This
                       modification further demonstrates poor planning,
                       since this work should have been included in the
                       original contract.

                     ¾ Entered into four of the five interagency agreements
                       we reviewed without performing an analysis called a
                       Determination and Finding. Subpart 17.503 of the



                                8
                     FAR requires that this analysis be conducted to
                     demonstrate that (1) the interagency acquisition is in
                     the best interest of the government and (2) the
                     supplies or services cannot be obtained as
                     conveniently or economically by contracting with a
                     private source. For example, OIEP entered into a
                     $94,000 agreement with the Geological Survey to
                     provide internet connectivity to BIA schools. OIEP
                     entered into this agreement without showing that it
                     was in the government’s best interest and that the
                     service could not be obtained at a better value or as
                     easily by a private vendor.

              We attributed these problems to a weak control
              environment including the lack of adequate procedures.
              The poor control environment and a lax attitude toward
              open competition did not provide OIEP management
              officials with the incentive to plan for foreseeable or
              recurring program needs in a timely manner. This often
              resulted in inadequate lead times to obtain full and open
              competition. In addition, some OIEP officials were not
              adequately trained on the FAR. For example, in January
              2003 a contracting officer recommended that a management
              official attend Contracting Officer’s Representative training
              because of continued problems with unauthorized
              commitment of funds.

              Because OIEP’s procurement process did not allow for an
              appropriate level of competition or provide contracting
              officers sufficient information to determine whether pricing
              was fair and reasonable, there was no assurance that
              procurements totaling at least $3.6 million were the most
              advantageous to the government.

              As a result of our audit, BIA has established a separate
BIA ACTIONS   accounting code structure in the financial accounting
              system for contingency funds. In its response to our draft
              report, BIA stated that it would take further actions to
              improve OIEP Central Office financial management by:

                 ¾ Submitting information about contingency funds
                   used in its future budget justifications to the
                   Congress.

                 ¾ Developing internal guidance to implement
                   regulations related to contingency fund operations.



                              9
                     ¾ Holding program managers accountable for proper
                       administration of program funds.

                     ¾ Implementing policy memorandums establishing a
                       process for review and approval of sole-source
                       justifications and clarifying lead time requirements
                       for procurement actions.

                     ¾ Submitting contract requisitions in accordance with
                       BIA procurement guidance and promptly address
                       issues of noncompliance.

                     ¾ Requiring program managers to attend a Contracting
                       Officer’s Representative training course.

                  In March 2003, BIA’s Division of Acquisition and Property
                  Management conducted a Quality in Contraction (QUiC)
                  Review of OIEP. In its draft report, the QUiC review team
                  reported that “OIEP program offices, may have been
                  submitting an unrealistic number of sole source
                  requirements.” The team recommended that the program
                  offices be encouraged to use competitive procurement
                  whenever possible. The QUiC review team also reported
                  that the OIEP acquisition staff was the best the team had
                  seen within BIA. The focus and scope of its review
                  differed significantly from the focus and scope of our
                  review. We did not audit the QUiC review process or its
                  results.

                  We recommend that the Assistant Secretary for Indian
RECOMMENDATIONS Affairs:

                      1. Establish a separate and identifiable accounting
                           code in the financial accounting system to account
                           for the contingency fund, providing a means of
                           monitoring, tracking, and validating contingency
                           fund transactions.

                      2. Prepare and submit a report to the Congress on the
                           uses of contingency fund monies in BIA’s annual
                           budget submission as required by statute.

                      3. Develop policies and procedures for contingency
                           fund operations, including:

                           a. Clearly defining emergencies and unforeseen
                              contingencies.


                                  10
   b. Requiring that contingency funds are used only
      for education services or programs at school
      sites funded with ISEP formula funds.

   c. Ensuring that contingency funds remain
       available without fiscal year limitation, as
       required by statute.

   d. Considering any remaining balances in
       determining the amount of current fiscal year
       appropriations needed to bring the contingency
       fund balance up to the one percent maximum
       allowable level.

   e. Establishing a periodic review process to
       ascertain that disbursements from the
       contingency fund are in accordance with
       Congressional legislation and internal policy.

4. Develop policies and procedures to require that
   organizational elements develop and adhere to
   approved spending plans and periodically monitor
   and report on conformance with spending plans.

5. Develop policies and procedures to comply with the
   October 4, 2002 Office of Management and Budget
   Memorandum for the Heads of Departments and
   Agencies containing business rules to be observed
   when engaging in intragovernmental exchange
   transactions. This would include ensuring that
   obligations and expenditures for interagency
   agreements are properly recorded and referenced.

6. Provide training to all OIEP staff to follow new and
   established procedures. This would include the
   procedures to ensure that obligating documents are
   issued in a timely manner and recorded in the
   financial accounting system.

7. Hold responsible officials accountable for
   implementing financial management policies and
   procedures by establishing an internal quality
   control review process to periodically monitor their
   compliance with those procedures.

8. Implement the January 22, 2003 policy
   memorandums issued by the OIEP Division of


          11
                      Contracts and Grants, which established a process
                      for review and approval of sole-source justifications
                      and clarified lead time requirements for
                      procurement actions.

                   9. Hold program managers accountable for submitting
                      contract requisitions within established lead times
                      and require the contracting officer to report
                      instances of noncompliance.

                   10. Require that interagency agreements entered into by
                       OIEP have approval by the OIEP contracting
                       officer and are supported by a Determination and
                       Finding.

                   11. Provide training on the FAR and proper contracting
                       procedures to all Central Office officials.

                   12. Hold the contracting officer accountable for
                       meeting all of the FAR requirements by
                       establishing a periodic peer review process through
                       the Department’s Office of Policy, Management,
                       and Budget with the results reported directly to the
                       Assistant Secretary.

               In the March 9, 2004 response to the draft report (Appendix
BIA RESPONSE   3), the Assistant Secretary and the OIEP concurred with our
               recommendations. However, the response did not provide
               sufficient information for us to consider all of the
               recommendations resolved. Based on the response, we
               consider 1 recommendation resolved and implemented and
               are requesting additional information for the remaining 11
               recommendations. (See Appendix 4 for Status of
               Recommendations.)




                              12
                                                                                Appendix 1


         BUREAU OF INDIAN AFFAIRS
ORGANIZATION, RESPONSIBILITIES, AND RESOURCES
The Bureau of Indian Affairs (BIA) federally funded school system provides for the
education of about 48,000 Indian students attending elementary, secondary, and boarding
schools located on 63 reservations in 23 states. BIA also provides for the education of
about 30,000 adult Indian students at 25 BIA-funded Tribally Controlled Community
Colleges and Universities and an additional 1,600 Indian adults at two colleges operated
by BIA.

The Office of Indian Education Programs (OIEP) within the BIA is charged with the
responsibility for administering BIA’s education programs. Some education programs
are provided directly by OIEP, and others are operated by tribes through grants or
contracts. OIEP is responsible for directing and managing all BIA education functions,
including formatting policies and procedures, supervising all education program
activities, and approving the expenditure of appropriated funds.

OIEP is currently organized into two major divisions, the Office of School Operations
and the Office of School Policy, Administration and Budget. Each of these divisions has
a Deputy Director that reports to the Director of OIEP. These two divisions make up the
OIEP Central Office and have offices located in Washington, D.C., and Albuquerque,
NM. The Deputy Director for School Operations provides oversight to the two BIA
operated colleges and to 24 Education Line Offices (that is, the field offices). The
Education Line Offices supervise principals at BIA-operated schools and represent OIEP
in its dealings with the schools operated by tribes or tribal organizations under contracts
or grants with BIA. The Deputy Director for School Policy, Administration, and Budget
provides oversight for management support services, including contracts and grants,
human resources, management information systems, budget formulation, and strategic
planning. In addition, the Deputy Director provides oversight for the administration of
programs funded by the Department of Education (DOE).

Under the Deputy Director for School Policy, Administration, and Budget, the Center for
School Improvement (CSI) performs the duties of a State Education Agency. CSI
provides teacher training aimed at improving and supporting student academic
achievement. CSI also provides technical assistance to schools in their reform efforts to
meet the requirements of the No Child Left Behind Act of 2001 (Public Law 107-110)
and the Individuals with Disabilities Education Act of 1997 (Public Law 105-17).

Funding for OIEP is appropriated as part of the Department of the Interior’s annual
budget. These funds provide elementary and secondary education and residential
programs for Indian students not served by public and sectarian schools; residential care
for some Indian students attending public schools; and special services to meet the needs
of Indian students in such areas as early childhood development, bilingual education,


                                            13
post-secondary education, and adult education. Funding is also provided by DOE under
the Elementary and Secondary Education Act (as amended by the No Child Left Behind
Act of 2001) and the Individuals with Disabilities Education Act. These funds are
administered by OIEP as a State Education Agency under agreement with DOE. As a
State Education Agency, OIEP is responsible for ensuring that all DOE program and
funding requirements are achieved.

Funding for the instruction and residential care of Indian children is provided to Indian
schools through the Indian School Equalization Program (ISEP). A majority of ISEP
funds are allocated to Indian schools using a formula. However, a portion of the ISEP
funds are reserved for the ISEP contingency fund to be used for emergencies or other
contingencies. The ISEP contingency fund is authorized by Public Law 100-427. The
legislation states that:

        The Secretary shall reserve from the funds available for distribution for
        each fiscal year under this section an amount which, in the aggregate,
        shall equal 1 percent of the funds available for such purpose for that
        fiscal year. Such funds shall be used, at the discretion of the Director of
        the Office, to meet emergencies and unforeseen contingencies affecting
        the education programs funded under this section. Funds reserved
        under this subsection may only be expended for education services or
        programs at a schoolsite (as defined in Section 5204 (c) (2) of the
        Tribally Controlled Schools Act of 1988). Funds reserved under this
        subsection shall remain available without fiscal year limitation until
        expended. However, the aggregate amount available from all fiscal
        years may not exceed 1 percent of the current year funds. Whenever
        the Secretary makes funds available under this subsection, the Secretary
        shall report such action to the appropriate committee of Congress
        within the annual budget submission.




                                            14
                                                                               Appendix 2


                     SCOPE AND METHODOLOGY
We generally limited the scope of our audit to the receipt, distribution, and use of funds
by the OIEP Central Office for fiscal year 2000 through April 2003. However, we
expanded our scope for the following two areas due to deficiencies identified during our
review.

   ¾ FEDSIM Agreement - We reviewed transactions related to OIEP’s agreement
     with the General Services Administration’s Federal Systems Integration and
     Management Center (FEDSIM) from July 1995 through November 2002.

   ¾ Contingency Fund - We reviewed transactions related to the Indian School
     Equalization Program’s (ISEP) Director’s contingency fund for budget fiscal year
     1996/1997 through 2001/2002.

To accomplish our audit, we visited OIEP’s Central Office locations in Washington,
D.C., and in Albuquerque, NM. We interviewed BIA personnel and reviewed records
concerning OIEP’s organization, procurement and contracting, financial accounting
transactions, and program management practices. In addition, we evaluated OIEP’s
system of internal controls related to overseeing and managing the accounting and
operational aspects of its administrative offices (the Central Office) and procurement and
contracting functions related to sole-source acquisitions.

We reviewed the following to determine whether they would impact our audit:

   ¾ Prior Audits – We reviewed audit reports issued by the U.S. General Accounting
     Office and the Office of Inspector General, Department of the Interior, for the
     past five years. We found that no reports had been issued that would directly or
     materially impact our audit.

   ¾ Government Performance and Results Act Information - We reviewed BIA’s
     Performance Plans for fiscal years 2002 and 2003 and BIA’s Performance
     Reports for fiscal years 2000 and 2001. Goals reported by BIA in its Education
     Activity related to student transportation, student proficiency, student attendance,
     teacher proficiency, school accreditation, conferred degrees, and student violence.
     We did not evaluate these reported goals, as they were not directly related to the
     objective of our audit.

   ¾ Federal Managers’ Financial Integrity Act Information – We reviewed the
     Department of the Interior Reports on Accountability for fiscal years 1998
     through 2000, which included information required by the Federal Managers’
     Financial Integrity Act of 1982. In addition, we reviewed BIA’s annual assurance
     statements on management controls for fiscal years 2001 and 2002. We


                                            15
       determined that BIA had not reported any material weakness that directly related
       to the objective of our audit.

We conducted our audit in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary to meet our
objective.




                                          16
     Appendix 3




17
18
19
20
                                                                   Appendix 4



Status of Audit Recommendations

 Recommendation            Status                   Action Required

       1          Resolved and             No further action is required.
                  implemented.

      2-12        Management concurs;      Provide a corrective action plan
                  additional information   that includes target dates and
                  requested.               titles of the officials responsible
                                           for implementation of the
                                           recommendations.




                                    21
This Page Intentionally Left Blank




               22
